Case No. 20-5228

SUPREME COURT OF THE UNITED STATES

UNITED STATES, ex rel. FRIEDRICH LU,
Petitioner,
v.
RAMANDEEP SAMRA; TRUSTEES OF BOSTON UNIVERSITY;
TRUSTEES OF TUFTS COLLEGE; and MARIELENA GAMBOARUIZ,
Respondents.

On Petition for Writ of Certiorari to the United States Court of Appeals
for the First Circuit

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI OF RESPONDENTS TRUSTEES OF TUFTS
COLLEGE AND MARIELENA GAMBOA-RUIZ

John G. Wheatley
Counsel of Record
Melick & Porter, LLP
One Liberty Square
Boston, Massachusetts 02109
jwheatley@melicklaw.com
(617) 502-9618

CORPORATE DISCLOSURE STATEMENT
OF TRUSTEES OF TUFTS COLLEGE
Pursuant to Rule 29.6 of the Rules of the Supreme Court of the United
States, the respondent Trustees of Tufts College certifies that it does not have a
parent corporation, nor does any publicly held corporation own 10% or more of its
stock.

STATEMENT OF THE CASE
The petitioner, Friedrich Lu, seeks certiorari review of orders issued in two
separate civil actions that dismissed claims he filed against the respondents under
the False Claims Act, 31 U.S.C. § 3729 et seq., on behalf of the United States
government. (App. 1-10.) In the first such action, the U.S. District Court for the
District of Massachusetts dismissed Lu’s qui tam claims on the ground that Lu, as a

pro se litigant, could not pursue qui tam claims on behalf of the United States
government under the False Claims Act. (App. 4.) Lu filed the second qui tam
action 15 days later.
On the defendants/respondents’ motion, the District Court again dismissed
Lu’s qui tam claims. (App. 9-10.) The court’s written decision set forth two
separate grounds for dismissal of Lu’s claims. (App. 6-9.) First, the court found
that Lu had violated a prior order of the court (which required that Lu attach a copy
of that prior order and a certification of compliance to any subsequent pleading that
Lu files in U.S. District Court in Massachusetts) and concluded that the sanction of
dismissal was warranted based on Lu’s repeated failure to comply with the order as

1

well as his attempt to relitigate issues that were decided in the prior qui tam action
Lu brought against Tufts. (App. 7-8.) Second, the court again concluded that Lu, as
a pro se plaintiff, could not pursue a qui tam action on behalf of the United States
government. (App. 9.)
The United States Court of Appeals for the First Circuit affirmed the District
Court’s judgment of dismissal of Lu’s qui tam claims in both cases. (App. 1-2.)
Consistent with the District Court’s ruling, the First Circuit held that Lu, as a pro

se litigant, could not pursue a qui tam action on behalf of the United States
government. (App. 2.) Lu proceeded to file the present petition for a writ of
certiorari with this Court, which raises the limited issue of whether a plaintiff may
proceed pro se on a claim brought under the False Claims Act.1
ARGUMENT
A petition for a writ of certiorari is granted only in limited circumstances. In
general, a party seeking certiorari review should show “compelling reasons” for
granting the petition. U.S. Sup. Ct. R. 10. Examples of “compelling reasons”
include, without limitation, a split of legal authority between United States Courts
of Appeals, a decision by a state’s highest appellate court on an important federal
question that conflicts with other state or federal appellate authority, or a court’s
decision on an important question of federal law that either conflicts with a decision

Lu is proceeding in forma pauperis, and the respondents therefore submit this opposition
pursuant to the provisions of Supreme Court Rules 15.3 and 33.2.
1

2

of the U.S. Supreme Court or that has not been, but should be, settled by a decision
of this Court. Id. None of these considerations are present in this case.
Notably, Lu concedes in his petition (in paragraph 2 under the heading
“Argument”) that there is no circuit split on the issue raised in his petition. Indeed,
there is universal agreement among every federal circuit appellate court that has
addressed this issue—including the First, Second, Third, Fourth, Fifth, Seventh,
Ninth, Eleventh, and D.C. Circuits—that a pro se litigant may not pursue a qui tam
action under the False Claims Act. See Wojcicki v. SCANA/SCE&G, 947 F.3d 240,
244 (4th Cir. 2020); United States ex rel. Brooks v. Ormsby, 869 F.3d 356, 357 (5th
Cir. 2017); Gunn v. Credit Suisse Group AG, 610 Fed. Appx. 155, 157 (3d Cir. 2015)
(unpublished); Nasuti ex rel. U.S. v. Savage Farms Inc., Case No. 14-1362, 2015 WL
9598315, at *1 (1st Cir. Mar. 12, 2015) (unpublished); Jones v. Jindal, 409 Fed.
Appx. 356 (D.C. Cir. 2011) (unpublished); Timson v. Sampson, 518 F.3d 870, 873
(11th Cir. 2008); United States ex rel. Mergent Services v. Flaherty, 540 F.3d 89, 93
(2d Cir. 2008); United States ex rel. Brooks v. Lockheed Martin Corp., 237 Fed.
Appx. 802, 803 (4th Cir. 2007) (unpublished); Stoner v. Santa Clara County Office of
Educ., 502 F.3d 1116, 1127 (9th Cir. 2007); United States ex rel. Szymczak v.
Covenant Healthcare Sys., Inc., 207 Fed. Appx. 731, 732 (7th Cir. 2006)
(unpublished). The rationale of this rule is that, because relators in a qui tam
action bring suit on behalf of the government, and pro se litigants may only
represent themselves, a pro se litigant may not bring a qui tam action on behalf of

3

the government. Nasuti ex rel. U.S. v. Savage Farms, Inc., Case No. 12-30121GAO, 2014 WL 1327015, at *7 (D. Mass. Mar. 27, 2014) (unpublished).
One of the leading cases on this issue is a decision by the U.S. Court of
Appeals for the Seventh Circuit in an appeal Lu filed from the dismissal of a
previous qui tam action Lu had brought against his former faculty advisor (and
others) at the University of Illinois at Chicago. See United States ex rel. Lu v. Ou,
368 F.3d 773 (7th Cir. 2004), abrogated on other grounds by United States ex rel.
Eisenstein v. City of New York, 556 U.S. 928 (2009). Judge Posner, writing for the
Seventh Circuit in a case of first impression, explained that the same policy that
forbids litigants to be represented by nonlawyers applies equally to qui tam cases,
and thus bars pro se plaintiffs from bringing qui tam actions on behalf of the United
States. Id. at 775. He further explained that having such a rule that limits legal
representation to lawyers “operates to filter out frivolous litigation that can redound
to the harm of the represented party,” especially considering the represented party
(i.e., the United States) may be bound or have its rights waived by its legal
representative under principles of res judicata and collateral estoppel. Id. Given
that only an attorney can provide legal representation to the government, the
Seventh Circuit concluded that Lu could not pursue a qui tam claim as a pro se
litigant and affirmed the dismissal of his case.
Lu has not identified any special circumstances or unique considerations that
would warrant certiorari review of well-established case law that is followed by
every circuit court decision to have considered this issue. Both the U.S. Court of

4

Appeals for the First Circuit and the U.S. District Court for the District of
Massachusetts correctly concluded that Lu could not pursue his qui tam claims as a

pro se plaintiff, consistent with every other federal court of appeals to decide this
same issue. Accordingly, Lu has not established any compelling reason to grant
certiorari review of this legal issue.
CONCLUSION
For the foregoing reasons, respondents Trustees of Tufts College and Dr.
Marielena Gamboa-Ruiz respectfully request that this Honorable Court deny Mr.
Lu’s petition for a writ of certiorari.
Respectfully submitted,

/s/ John G. Wheatley
John G. Wheatley
Counsel of Record
MELICK & PORTER, LLP
One Liberty Square
Boston, Massachusetts 02109
jwheatley@melicklaw.com
(617) 502-9618

Counsel for Trustees of Tufts College and
Marielena Gamboa-Ruiz
Dated: August 31, 2020

5

Case No. 20-5228

SUPREME COURT OF THE UNITED STATES

UNITED STATES, ex rel. FRIEDRICH LU,
Petitioner,
v.
RAMANDEEP SAMRA; TRUSTEES OF BOSTON UNIVERSITY;
TRUSTEES OF TUFTS COLLEGE; and MARIELENA GAMBOARUIZ,
Respondents.

CERTIFICATE OF SERVICE
I, John G. Wheatley, counsel for the respondents, Trustees of
Tufts College and Marielena Gamboa-Ruiz and a member of the Bar of
this Court, certify that on this 31st day of August, 2020, I caused a copy
of the Brief for Respondents, Trustees of Tufts College and Marielena
Gamboa-Ruiz in Opposition to be served by electronic means and
served by mail on the following:
Friedrich Lu, pro se
St. Francis House
P.O. Box 499
Lafayette Station
Boston, MA 02112
chi2flu@gmail.com

Steven Sharobem
Assistant United States Attorney
US Attorney’s Office
One Courthouse Way, Suite 9200
Boston, MA 02210
(617) 748-3355
steven.sharobem@usdoj.gov
(Counsel for United States)
Lisa A. Tenerowicz
Boston University
Office of the General Counsel
125 Bay State Road
Boston, MA 02215
(617) 353-2326
latenero@bu.edu
(Counsel for Ramandeep Samra and
Trustees of Boston University)
Jeffrey B. Wall
Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave., N.W.,
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(Counsel for United States)
I further certify that all parties required to be served have been
served.
___________________
John G. Wheatley

